     Department of Homeland Security





     FEMA Should Recover $401,046 of Public Assistance
                Grant Funds Awarded to the
                City of Palm Beach Gardens,
        Florida — Hurricanes Frances and Jeanne




DA-13-19                                        June 2013

                      ,     ..
                     •••  Department
                      O~At9ND
                                     INSPECrOR GENERAL
                     x~ OFFICE OF INSPECTOR
                                54GJ4
                          Department of Homeland Security
                                               Washington, DC 20528 / www.oig.dhs.gov



                                                        JU N 1
                                                        JUN  1 1 2013
                                                               1 2013

           FOR:
MEMORANDUM FOR:                                 P. (Phil)
                                          Major P. (Phil) May
                                                   Administrator, Region IV
                                          Regional Administrator,
                                          Federal     erge cy Management Agency

FROM:
FROM:                                     John V. K
                                          Assistan
                                                         ,pfti;!P~-
                                                         v
                                                    sp ctor   eral
                                          Office Emergency Management
                                                            Management Oversight

Subject:
Subject:                                  FfMA Should Recover.$401,046
                                          FEMA          Recover $401,046 of Public Assistance
                                          Grcmt Funds
                                          Grant  Funds Awarded to the City of
                                                                           of Palm Beach Gardens,
                                                                                         Gardens,
                                                  - Hurricanes Frances
                                          Florida —            Fronces and
                                                                       ond Jeanne
                                                                            1561-DR-FL
                                          FEMA Disaster Numbers 1545 and 1561    -DR-FL
                                          Audit Report
                                                Report Number DADA-13-19
                                                                  -13-19

We audited Public Assistance grant funds
                                   funds awarded to the City of Palm Beach Gardens,
                                                                           Gardens,
Florida (City)
        (City) (PIPS
               (FIPS Code 099
                          099-54075-(0).
                             -54075-00). Our audit objective was
                                                             was to determine whether the
(ity accounted for and expended Federal Emergency Management Agency(FEMA)
City                                                                      (FEMA) grant
                                                                                 gf"nt
                                                 guidelines.
funds according to Federal regulations and FEMA guidelines.

The City received Public Assistance grant awards totaling $5.6 $5.6 million from
                                                                             from the Florida
Division of Emergency Management (State),(State), a FEMA grantee,
                                                           grantee, for damages resulting fromfrom
Hurricanes
Hurricanes  Frances    and Jeanne,
                           Jeanne, which    occurred  in September   2004.
                                                                     2004.  The  awards    provided
100 percent FEMA funding
                      funding for the first
                                      first 72
                                            72 hours of emergency protective measures and
debris removal activities and 9090 percent funding thereafter for for those two activities.
                                                                                  activities. The
awards
awards  also provided    90
                         90 percent FEMA     funding
                                             funding for  permanent   repairs to buildings,  roads,
                                                                                 buildings, roads,
and park facilities.
          facilities. Table 1 provides the specifics for each disaster.
                                                                disaster.

                                        Table 1. Disaster-Specific Information
                                                                        Amount           Large      Small
                                    Disaster          Date of           Awarded         Projects   Projects
          Disaster                     No.            Disaster         (Millions)       Awarded    Awarded
    Hurricane Frances                 1545          09/04/2004            $3.6             5          30
    Hurricane Jeanne                  1561          09/25/2004            $2.0             6          13
    Total                                                                 $5.6             11         43


We audited 44 large projects and 1212 small
                                      small projects with awards
                                                          awards totaling $4.3
                                                                          $4.3 million under the
two disasters (see
              (see Exhibit,
                   Exhibit, Schedule of Projects
                                         PrOjects Audited).
                                                  Audited). The audit covered  the period
           3, 2004,
September 3,   2004, to April 16,
                              16, 2012,
                                  2012, during which the City claimed $4.3
                                                                       $4.3 million of costs

11 Federal regulations
           regulation, in effect at th~ time
                                 ot the tim. of hurricanes
                                                hu rrican ... Frances
                                                              Fmnc.< and Jeanne set
                                                                                ,et the large project threshold at
                                                                                                                ot
$54,100.
$54,100.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


under the projects reviewed. At the time of our audit, the City had completed work on all
large projects and had submitted final claims to the State for large project expenditures.

We conducted this performance audit between April 2012 and February 2013 pursuant to
the Inspector General Act of 1978, as amended, according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit,
we applied the statutes, regulations, and FEMA policies and guidelines in effect at the time
of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other
procedures considered necessary under the circumstances to accomplish our audit objective.
We did not assess the adequacy of the City’s internal controls applicable to its grant activities
because it was not necessary to accomplish our audit objective. However, we gained an
understanding of the City’s method of accounting for disaster-related costs and its policies
and procedures for administering activities provided for under the FEMA awards.


                                      RESULTS OF AUDIT

FEMA should recover $401,046 of grant funds awarded to the City. Although the City
accounted for expenditures on a project-by-project basis as required by Federal regulations
and FEMA guidelines, its claim included $401,046 of ineligible costs, which consisted of
$63,214 covered by insurance proceeds, $31,214 covered by another Federal agency, and
$306,618 that were unsupported. Table 2 identifies the ineligible costs specific to each
disaster.

                           Table 2. Summary of Questioned Costs
                                         Funded by                                 Total
                           Insurance      Another       Unsupported               Amount
       Disaster            Recoveries      Agency          Charges               Questioned
 Hurricane Frances             $39,575       $22,564               $0                 $62,139
 Hurricane Jeanne               23,639          8,650         306,618                 338,907
 Total                         $63,214       $31,214         $306,618               $401,046

Finding A: Duplication of Benefits

The City’s claim included $94,428 for activities covered by insurance proceeds and by
another Federal agency. Section 312(a) of the Robert T. Stafford Disaster Relief and


www.oig.dhs.gov                              2                                      DA-13-19
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Emergency Assistance Act, as amended, states that no entity will receive assistance for any
loss for which financial assistance has already been received from any other program, from
insurance, or from any other source. We question the $94,428, as follows:

   •	 The City’s claims under the two disasters included $50,714 of project costs covered
      by insurance proceeds. The City received insurance proceeds totaling $804,166 to
      cover damages to facilities and applied $311,196 of the proceeds to reduce FEMA
      project costs. We reviewed the schedule of properties insured and the statement of
      losses that contained information related to the facility location, building number,
      building values for structure and contents, losses claimed under each facility,
      adjustments for insurance deductibles and depreciation, and insurance losses paid.
      Based on our analysis of the documentation, we determined that an additional
      $39,575 and $11,139 of proceeds were for facilities damaged by Hurricanes Frances
      and Jeanne, respectively, but not used to offset FEMA project costs. City officials said
      that they gave all insurance information to a FEMA representative who determined
      the amount applied to the projects. We question the $39,575 for Hurricane Frances
      (see Table 3) and the $11,139 for Hurricane Jeanne (see Table 4).

                   Table 3. Insurance Recoveries – Hurricane Frances
                                                          Amount
                Project          Facility Name           Questioned
                 3335    Public Works                         $16,725
                 3340    Plant Drive Park                       3,579
                 3354    Fire Station #1                        1,893
                 3363    PGA National Park Facilities           4,401
                 4170    Lake Catherine Park                    4,490
                 5106    Marisol Park                           6,910
                 5381    Marisol Park                           1,577
                Total                                         $39,575

                    Table 4. Insurance Recoveries – Hurricane Jeanne 

                                                           Amount
                Project          Facility Name           Questioned
                 2490     PGA National Park Facilities         $ 1,018
                 3058     Lake Catherine Park                    2,950
                 2488     Plant Drive Park                       7,171
                Total                                          $11,139

   •	 The City’s claim included $12,500 of debris removal costs covered by insurance
      proceeds. The City received $12,500 of insurance proceeds under Hurricane Jeanne
      to cover costs of removing vegetative debris (trees and shrubs) from various City
      locations. However, the City did not reduce FEMA project costs for such amount.


www.oig.dhs.gov                            3	                                    DA-13-19
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       Therefore, we question the $12,500. The statement of loss did not identify the
       specific FEMA projects affected by the proceeds. Therefore, the State and FEMA
       should review and make a determination as to which projects the proceeds should be
       credited.

   •	 The City’s claim under several projects included $31,214 of debris removal costs
      covered by the Federal Highway Administration. The City requested and received
      $265,209 from the Federal Highway Administration to cover debris removal costs
      incurred on Federal-aid roads. During project closeout, a FEMA closeout specialist
      noted the proceeds received from Federal Highway Administration, but inadvertently
      reduced project costs by $233,995, rather than the $265,209 actually received.
      Therefore, we question the difference of $31,214, which consists of $22,564 under
      Project 5130 (Hurricane Frances) and $8,650 under Project 2883 (Hurricane Jeanne).

City officials disagreed with our insurance finding, saying that almost all of the questioned
amounts were for damages covered by the City’s insurance deductible, not insurance
proceeds. However, they did not provide us with adequate documentation to support their
assertion. They also disagreed with our finding on Federal-aid roads, saying that the City did
not claim debris removal costs for Federal-aid roads to FEMA. However, our review of the
project worksheets and supporting documentation indicated otherwise.

Finding B: Supporting Documentation

The City's claim under Project 2883 (Hurricane Jeanne) included $306,618 of contract
charges that were not supported by adequate documentation. Federal Regulation 2 CFR
225, Costs Principles for State, Local and Indian Tribal Governments, Appendix A, Section
C.1.j, states that costs must be adequately documented to be allowable under Federal
awards. We question the $306,618, as follows:

   •	 The City did not have landfill records to support $217,333 of debris removal charges.
      The City claimed $587,506 to collect, manage, and haul 39,167.04 cubic yards of
      construction and demolition and mixed debris to a final disposal site. Because of the
      nature of the debris, the contractor did not reduce the debris prior to hauling it to
      the landfill. However, landfill records show that the contractor deposited only
      24,678.20 cubic yards of debris at the landfill or 14,488.84 cubic yards less than the
      amount billed. At the negotiated rate of $15.00 per cubic yard to pick up, haul, and
      process, the result was an overcharge of $217,333 ($15.00 × 14,488.84 cubic yards).
      On June 28, 2012, we met with City officials to discuss the discrepancy. However,
      they could not explain the reason for the discrepancy or provide additional
      documentation to support the charges. Therefore, we question the $217,333 of
      unsupported debris removal charges.




www.oig.dhs.gov                             4	                                    DA-13-19
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   •	 The City did not have landfill records to support $76,908 of tipping fee charges. The
      City’s debris removal contractor billed $81,021 for tipping fees associated with hauling
      and depositing 40,510.45 cubic yards of processed vegetative debris (mulch) to a
      landfill. However, landfill records supported only 2,056.60 cubic yards of mulch
      deposited at the landfill by the contractor, or 38,453.85 cubic yards less than the
      amount billed. City officials said that the contractor hauled the remaining cubic yards
      of mulched debris to private family farms. However, under such a scenario, the
      contractor would not have incurred landfill tipping fees to be billed to the City.
      City officials could not provide any other explanation as to why the landfill records
      did not agree with the contractor’s billings. Therefore, we question the $76,908 of
      unsupported tipping fees (38,453.85 cubic yards times the contracted rate of $2.00
      per cubic yard).

   •	 The City received $12,377 of excess funding under several projects because of an
      error made by a FEMA inspector during project closeout. The City received awards
      totaling $4,181,004 under Projects 4917, 5130, 2877, and 2883 for debris removal
      activities citywide. However, the City had documentation to support only $4,168,627
      of costs, or $12,377 less than the amount awarded. The $12,377 of unsupported
      costs occurred under Project 2883 because the FEMA closeout specialist based the
      final project award amounts on estimated costs rather than actual project costs
      incurred by the City. Therefore, we question the $12,377.

City officials disagreed with the finding, but did not provide us with adequate documentation
to cause us to change our position.


                                   RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $39,575 (Federal share $35,618) for insurance recoveries not
credited to FEMA projects under Hurricane Frances unless the City can provide additional
evidence showing that the insurance allocation was correct (Finding A).

Recommendation #2: Disallow $11,139 (Federal share $10,025) for insurance recoveries not
credited to FEMA projects under Hurricane Jeanne unless the City can provide additional
evidence showing that the insurance allocation was correct (Finding A).

Recommendation #3: Disallow $12,500 ($11,250 Federal share) under Hurricane Jeanne for
insurance recoveries not credited to FEMA projects unless the City can provide additional
evidence showing that the insurance allocation was correct (Finding A).




www.oig.dhs.gov                            5	                                    DA-13-19
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Recommendation #4: Disallow $22,564 (Federal share $20,308) for Federal Highway
Administration funds received for debris removal activities that were not credited to FEMA
projects under Hurricane Frances unless the City can provide additional evidence showing
that the funds should not be allocated to the FEMA project (Finding A).

Recommendation #5: Disallow $8,650 (Federal share $7,785) for Federal Highway
Administration funds received for debris removal activities that were not credited to FEMA
projects under Hurricane Jeanne unless the City can provide additional evidence showing
that the funds should not be allocated to the FEMA project (Finding A).

Recommendation #6: Disallow $306,618 (Federal share $275,956) under Hurricane Jeanne
for unsupported project costs unless the City can provide additional evidence supporting
those charges (Finding B).


                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with the City, State, and FEMA officials during our audit.
We also provided a draft report in advance to FEMA, State, and City officials, and discussed it
at the exit conference held on March 25, 2013. City officials disagreed with our findings and
recommendations. Their comments, where appropriate, are included in this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion dates for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until we receive and evaluate your response, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Eastern Regional Audit Director; William
Johnson, Audit Manager; and Oscar Andino, Auditor in Charge.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Regional Audit Director, at (404) 832-6702.




www.oig.dhs.gov                              6                                     DA-13-19
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                                                                                    Exhibit
                                     Schedule of Projects Audited

                                  Insurance       Duplication     Unsupported       Total
    Project       Award          Recoveries       of Benefits         Costs        Amount          Federal
    Number       Amount          (Finding A)       (Finding B)     (Finding C)    Questioned        Share
                                      Hurricane Frances (Disaster 1545)
Large:
    4917         $1,781,866                  0               0               0               0             0
    5130            869,964                  0         $22,564               0         $22,564       $20,308
  Subtotal       $2,651,830                  0         $22,564               0         $22,564       $20,308
Small:
    3335            $16,725           $16,725                0               0         $16,725       $15,053
    3340              3,579             3,579                0               0           3,579         3,221
    3354              3,652             1,893                0               0           1,893         1,704
    3361             12,000                 0                0               0               0             0
    3363              4,401             4,401                0               0           4,401         3,961
    4170              4,490             4,490                0               0           4,490         4,041
    4687             14,222                 0                0               0               0             0
    5106              6,910             6,910                0               0           6,910         6,219
    5381              1,577             1,577                0               0           1,577         1,419
  Subtotal          $67,556           $39,575                0               0         $39,575       $35,618
    Total        $2,719,386           $39,575          $22,564               0         $62,139       $55,926


                                      Hurricane Jeanne (Disaster 1561)
Large:
    2877           $421,894                  0               0               0               0             0
    2883          1,107,279                  0          $8,650        $306,618        $315,268      $283,741
  Subtotal       $1,529,173                  0          $8,650        $306,618        $315,268      $283,741
Small:
    2488             $7,171            $7,171                0               0          $7,171        $6,454
    2490              1,018             1,018                0               0           1,018           916
    3058              3,400             2,950                0               0           2,950         2,655
          2
   Other                  0            12,500                0               0          12,500        11,250
  Subtotal          $11,589           $23,639                0               0         $23,639       $21,275
    Total        $1,540,762           $23,639           $8,650        $306,618        $338,907      $305,016

Grand Total      $4,260,148           $63,214          $31,214        $306,618        $401,046      $360,942




2
 See Finding A, bullet 2. The State and FEMA need to make a determination on which projects to apply the
$12,500 of questioned costs.


www.oig.dhs.gov                                   7                                          DA-13-19
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                                                        Appendix

                                      Report Distribution

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-030)

State

Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee

Comptroller, City of Palm Beach Gardens

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform



www.oig.dhs.gov                            8                             DA-13-19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
